Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




        MATERNAL AND
CHILD HEALTH TRAINING GRANTS
          THE LEND PROGRAM




             JUNE GIBBS BROWN
              Inspector General

                  APRIL 2000
                OEI-04-98-00090
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, and
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                              HEADQUARTERS

Janet Miller, Lead Analyst                          Alan Levine, Program Specialist
Josiah Townsel, Team Leader                         Barbara Tedesco, Statistician
Dwayne Grant, Program Analyst                       Brian Ritchie, Program Analyst
                          TABLE OF CONTENTS

                                                                                                                     PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


FINDINGS


         Success In Interdisciplinary Treatment of Children . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


         What Happens to Graduates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


         Shortcomings in Monitoring and Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         Confusing Grant Categories . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDIX A: HRSA COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                        EXECUTIVE SUMMARY

 PURPOSE
          To determine how the Maternal and Child Health Bureau provides guidance for and
          oversight of training grants for Interdisciplinary Leadership Education Excellence in
          Caring for Children with Neurodevelopmental and Related Disabilities to assure the grants
          meet their objectives.


 BACKGROUND

          The Interdisciplinary Leadership Education Excellence in Caring for Children with
          Neurodevelopmental and Related Disabilities (LEND) is a training grant program. Its
          purpose is to train professionals who will improve the health status of infants, children,
          and adolescents, with or at risk for, neurodevelopmental and related disabilities.

          The program seeks to achieve its mission through funding graduate level, interdisciplinary
          training which produces professionals to work with special needs children.

          The Maternal and Child Health Bureau (MCHB) is part of the Health Resources and
          Services Administration, in the Department of Health and Human Services. The Maternal
          and Child Health Bureau oversees the LEND training grant program.

          The Maternal and Child Health Bureau administered 34 LEND program grants in 1998.
          The grant programs are funded in public and nonprofit universities. LEND grants to each
          institution average about $500,000 per year. In 1998, LEND grants ranged in amount
          from $300,000 to $1.2 million.


 FINDINGS

 The LEND program benefits interdisciplinary treatment for children

          LEND programs produce leaders in interdisciplinary treatment of children with
          developmental disabilities. They also play a very important role in helping to support
          university clinics serving special needs children. Further, LEND program graduates
          reduce the shortage of adequately trained people who deliver services to special needs
          children.




MCHB Training Grants: Performance of LEND Programs   1                                    OEI-04-98-00090
 LEND grantees have mixed success in demonstrating leadership and tracking
 graduates

          LEND grantees have some success tracking recent graduates. However, their tracking of
          less recent graduates is spotty and some grantees collect information that is not relevant.

 Monitoring and evaluation of grantees is minimal

          MCHB does not conduct monitoring visits to grantees, and thus has little basis for critical
          decisions regarding refunding. MCHB oversight of LEND is hampered by the lack of
          systematic on-site monitoring of grantees.

 New grant categories are confusing

          MCHB has reclassified grantees as ‘Regional’ and ‘Regional and National’. This
          classification is confusing, with some grantees unsure of how to declare themselves.
          Many grantees are concerned that incorrect designation might disqualify them from
          funding.


 RECOMMENDATIONS

          MCHB should:

                   Develop outcome measures for determining the success of the LEND program.

                   Work with its grantees to develop more effective tracking of the LEND graduates.

                   Use on-site visits to aid program oversight and in making funding decisions.

                   Clearly distinguish between categories of funding.


 COMMENTS

          The HRSA concurred with our recommendations. The full text of their comments is in
          Appendix A.




MCHB Training Grants: Performance of LEND Programs   2                                   OEI-04-98-00090
                                   INTRODUCTION

 PURPOSE

          To determine how the Maternal and Child Health Bureau provides guidance for and
          oversight of training grants for Interdisciplinary Leadership Education Excellence in
          Caring for Children with Neurodevelopmental and Related Disabilities to assure the grants
          meet their objectives.

 BACKGROUND

          The Interdisciplinary Leadership Education Excellence in Caring for Children with
          Neurodevelopmental and Related Disabilities (LEND) is a training grant program. Its
          purpose is to train professionals who will improve the health status of infants, children,
          and adolescents, with or at risk for, neurodevelopmental and related disabilities.

          The program seeks to achieve its mission through funding graduate level, interdisciplinary
          training which produces professionals to work with special needs children. The program
          focuses on health conditions of mental retardation, neurodegenerative and acquired
          neurological disorders, and multiple handicaps. The program emphasizes development of
          leadership in its trainees.

 Authorization

          Congress authorized the Maternal and Child Health Services Programs in 1935, with Title
          V of the Social Security Act. The purpose of Title V is to improve the health of all
          mothers and children consistent with applicable health status goals and national health
          objectives established by the Secretary, Department of Health and Human Services
          (DHHS).

 Administrative Responsibility

          Title V is administered by the Maternal and Child Health Bureau (MCHB) of the Health
          Resources and Services Administration (HRSA) as the Maternal and Child Health Services
          Block Grant. The Block Grant is MCHB’s principal statutory responsibility.

          The MCHB serves all mothers and children in the U.S., but places an emphasis on
          providing access to care for low-income and otherwise isolated populations.




MCHB Training Grants: Performance of LEND Programs   3                                    OEI-04-98-00090
 Funding and Administration

          The Maternal and Child Health Services Block Grant was funded at $683 million in FY
          1998. Of that grant appropriation, MCHB sets aside 15 percent (about $102 million) to
          fund Special Projects of Regional and National Significance (SPRANS).

          The LEND grant program, funded at almost $18 million in FY 1998, is the largest single
          category of funding under SPRANS.

          Thirty-four (34) LEND training grants were operating in 1998. The grant programs are
          administered by public and nonprofit universities. In 1998, LEND grants ranged in
          amounts from $300,000 to $1.2 million. A typical LEND grant was about $500,000 per
          year. Each grantee provides leadership training and related administrative functions with
          their individual LEND grant.

          Organizations that receive LEND grants usually fund training that is administered by their
          University Affiliated Program (UAP). The UAP commonly administers LEND grant
          training along with training funded by other sources for related developmental disabilities.

          Beginning in 1995, the grants have been renewed on a competitive basis on a staggered
          five-year cycle. As is required in the case of multi-year funding cycles, LEND grantees
          prepare an application for continuation of funding each year. These continuations, which
          contain an annual progress report, are funded on a non-competitive basis. At the end of
          the five-year period, grantees must compete against all others interested in a LEND grant.
          Anecdotal evidence suggests there is very little turnover in the institutions receiving
          grants.

 Requirements of LEND Programs

          LEND grant programs must provide long-term training to produce professionals to work
          with special needs children. The training is usually provided at graduate and post-
          graduate levels, and as part of continuing education programs. The LEND grant
          programs also provide technical assistance and consultation to providers of health care
          services. Examples of program activities include:

          - Graduation of long-term trainees in a minimum of 12 disciplines.1
          - Training on State Title V programs.
          -	 Technical assistance to Head Start agencies, State Title V and related agencies, and
             various community-based programs.
          - Service by LEND faculty on national, regional, State, and local advisory boards.



    1
     The 12 disciplines include pediatrics, nursing, public health social work, speech-language pathology,
 nutrition, audiology, occupational therapy, physical therapy, psychology, health administration, pediatric
 dentistry, and parents of children with neurodevelopmental disabilities. The last two were added in 1998.

MCHB Training Grants: Performance of LEND Programs    4                                        OEI-04-98-00090
          LEND grantees also must have a LEND project director, and a faculty representing at
          least the 12 different disciplines. This allows families of children with special needs to
          receive interdisciplinary consultation at one location. The LEND grant director must be a
          board certified pediatrician. The grants have additional requirements in the areas of
          faculty qualifications, required training curriculum, faculty research, types of trainees, and
          reporting and evaluation.

          The MCHB has operated the LEND program for almost 30 years. During that time,
          MCHB has intermittently increased the number of grantees. Despite a statutory
          requirement to do so, MCHB has not evaluated LEND to determine that it is operating as
          intended. This inspection represents the first effort to do so.

 METHODOLOGY

          We purposively sampled the LEND grant programs for our inspection. We selected 17 of
          the 34 LEND grantees operating in 1998. We designed our sample to include grantees
          that represented a geographic cross section of the U.S. In addition, our sample included
          programs which have been funded since the inception of the grant program, as well as
          programs in their first funding cycle. We conducted an on-site inspection at each selected
          grant program.

          To understand program accomplishments, we used standardized data collection
          instruments for interviewing relevant officials and staff at each selected grantee. In those
          locations where training was in session, we interviewed currently enrolled trainees. We
          also interviewed recent graduates to better understand their perceptions of the usefulness
          of LEND training. On average, we interviewed 6 to 10 officials and staff at each site for a
          total of approximately 135. We also interviewed over 60 present trainees. Finally, we
          interviewed more than 30 graduates, some in person and some by telephone.

           Further, at each site we reviewed documentation on grant program funding, plans,
          operations, and accomplishments. This documentation included the application under
          which the grantee is currently funded. We also examined interim reports used to update
          MCHB on prior year accomplishments. In cases where grantees were scheduled to
          compete for the major refunding cycle, we reviewed their applications. These applications
          described their five-year accomplishments in great detail. The applications also projected
          their plans for the upcoming grant period. This information was extremely helpful to the
          inspection team in understanding the particular program. Finally, some grantees prepared
          special information for the inspection team, which we also considered.

          To ensure that LEND programs were reaching out beyond the University clinics, we
          interviewed a number of State Title V agency staff. We also contacted a number of Head
          Start Directors and their technical assistance contractors to determine their awareness of
          and interaction with LEND grantees.

          To corroborate and obtain a broader perspective on LEND program activities, we also
          interviewed several other knowledgeable parties, such as former LEND program

MCHB Training Grants: Performance of LEND Programs   5                                     OEI-04-98-00090
          administrators and officials, university program administrators and officials with the
          American Association of University Affiliated Programs. Where possible we also
          interviewed senior University officials not directly associated with the grant program to
          obtain their perspectives on the program. This also gave the inspection team a sense of
          the prominence of LEND in the broader university community.

          To better understand the implications of open competition within LEND, we interviewed
          former grantee officials from programs that had unsuccessfully competed in the first open
          competition. These programs had been forced to shut down their LEND operations. In
          addition, we interviewed university officials and UAP officials who had been involved in
          these discontinued programs. From these interviews, we obtained insights and
          perspectives on closing down LEND programs.

          Finally, to ascertain program requirements and expectations, we interviewed relevant
          MCHB officials. Because of a marked turnover in MCHB staff during the time we were
          conducting this inspection, we interviewed members of both the former and present staff.

          We aggregated data from all sources and performed a qualitative analysis to compare
          LEND training grant performance to MCHB grant objectives and regulatory requirements.
          To assess MCHB decisions on funding, we analyzed program budgets, adjusting for
          inflation. In light of program mandates, we assessed MCHB decisions on program
          requirements and expansion. Finally, to assure that MCHB selection criteria were
          followed, we reviewed application requirements and grantee selections.

                                              _      _   _   _   _

          We conducted data collection and analysis between July 1998 and July 1999. We
          conducted the inspection in accordance with Quality Standards for Inspections issued by
          the President’s Council on Integrity and Efficiency.




MCHB Training Grants: Performance of LEND Programs       6                               OEI-04-98-00090
                                           FINDINGS


 The LEND Program Benefits Interdisciplinary Treatment For
 Children

 LEND grantees produce leaders for interdisciplinary treatment for children with
 developmental disabilities

          Central to the LEND program is its stated goal to produce leaders for interdisciplinary
          treatment of special needs children. However, in its guidance, MCHB does not define
          leadership or establish standards or outcome measures by which to determine LEND’s
          success in producing leaders.

          While leadership is difficult to define, failure to do so or to establish outcome measures
          inhibits evaluation and management of the LEND program. It is clear that MCHB expects
          LEND trainees to continue serving special needs children. Therefore, LEND leadership is
          focused on a variety of professions centered around meeting the needs of such children.

          In fact, we discovered a wide range of ideas on what constituted leadership while
          interviewing LEND respondents. These definitions included teaching and publishing
          professionals. They also included researchers, service providers and program
          administrators. We used these concepts and examples as a framework for evaluating the
          LEND program.

          Leaders in providing services

          LEND graduates and trainees are in the forefront in providing services to special needs
          children. The inspection team saw a large number of LEND graduates providing state-of-
          the-art services to special needs children in the university clinics. We identified LEND
          graduates who were directing a broad spectrum of innovative treatment programs,
          developing custom medical equipment and providing advocacy for special needs children.
          These clinics are a scarce and valued resource in service provision.

          LEND graduates and trainees also provide services to children in the community. One
          such site is the public schools where many LEND graduates serve as coordinators for
          services to special needs children. Typically their interdisciplinary training enables them to
          bring together a number of services appropriate to a particular child. These services may
          include audiology, speech pathology, physical therapy, nutrition and social work.

          The inspection team discovered that LEND graduates and trainees provide a variety of
          services to children who are never seen at a university clinic. Perhaps these children do


MCHB Training Grants: Performance of LEND Programs   7                                    OEI-04-98-00090
          not need the level of service provided there, or are unable to travel. These children may
          live in isolated areas such as remote farming communities or Indian reservations. Without
          the LEND program, it is unlikely that some needed services could be delivered in the
          community.

          Many LEND programs also deliver services in States other than the one in which the
          program is funded. For example, a LEND program may utilize its staff or trainees to
          establish, coordinate or create new programs which serve special needs children in other
          States. These States may use the resources of the LEND grantee University Clinic. Such
          services are often designed and delivered by LEND trainees. With LEND staff and
          trainees leading the way, these services are often delivered under the auspices of the Title
          V agencies in those States. For example, each state has a Title V program for children
          with special health care needs. The state programs may coordinate services with LEND
          programs. Such programs expand the influence of LEND well beyond the university
          campus. In each case, the LEND grantee is the driving force, the leader in providing these
          services.

          Leaders in professional circles

          LEND graduates and staff also provide leadership by serving on advisory and policy
          boards for State Title V Agencies. They also serve on a large number of related
          committees, councils and boards. These bodies provide oversight and policy direction for
          a number of organizations at the international, national, regional and local levels.

          The array of such organizations is extremely broad and comprehensive, easily numbering
          in the hundreds. Some examples at the national level include: the National Cancer
          Institute, American Academy of Pediatrics, Society of Pediatric Psychology, Sickle Cell
          Disease Association of America, American Academy of Audiology, and American Society
          of Human Genetics. These are but a few examples to illustrate the influence LEND can
          have on science and public policy for special needs children.

          Leaders in program administration

          Another clear indication that the LEND grant program produces leaders is the large
          number of LEND graduates that direct and staff many of the present LEND grantee
          organizations. As a rule, the LEND grants are made to large university clinics. These
          clinics are sophisticated enterprises, housing service, research and teaching activities with
          State, regional and national scope. The clinics are the most important centers in the
          country for developing state-of-the-art treatment modalities for special needs children. In
          fact, LEND training usually represents only a small part of what they do. It is a tribute to
          LEND that the directors of these clinics are frequently former LEND trainees. These
          directors are professionals and leaders whose lives reflect a lifelong professional
          commitment to making a difference for special needs children.




MCHB Training Grants: Performance of LEND Programs   8                                    OEI-04-98-00090
 LEND programs support and benefit from other activities for serving special
 needs children

          As described briefly above, one of the most striking features of the LEND program is that
          it is usually operated in close association with university clinics. The clinics deliver
          important and scarce services to special needs children. In many cases, the clinics offer
          services which are not otherwise available in the State or region. In some cases, children
          from other countries arrive at these clinics for service that is not readily available
          elsewhere. These children and their parents often reach the clinics devoid of hope that
          anything can be done to meet their needs. The inspection team heard a number of
          testimonials about how these clinics and their staffs, many of whom are funded by LEND,
          had provided the only services available anywhere to meet these special needs.

          While most of the clinics would exist regardless of LEND funding, LEND does play a
          very important role in underwriting key staffing costs. This includes paying staff salaries.
          It also includes providing trainees to work in various capacities in the clinics. Therefore,
          the LEND training grants help maintain and improve clinic services. In turn, the clinics
          offer a unique training opportunity for LEND trainees. According to many LEND grantee
          staff, the sophisticated clinic service settings provide LEND trainees unparalleled training
          opportunities, exposing them to state-of-the-art treatment modalities in addition to the
          unusual interdisciplinary approach.

 LEND funds stimulate interdisciplinary training to address shortages of
 professionals who treat special needs children

          According to several LEND grant directors, there is a shortage of adequately trained
          people to deliver services to special needs children. Many of the grantees report difficulty
          in filling their university positions, as well as practitioner positions in surrounding
          communities. In addition to testimonial evidence, we found a large number unfilled
          position announcements that had been open for a number of months.

          Further, there is a particular shortage of professionals who have received interdisciplinary
          training, widely acknowledged by professionals in the field to be the best training model.
          Individual disciplines may offer training for serving special needs children. However, the
          LEND grants were the only source identified for funding interdisciplinary training.

          In some grantees, the interdisciplinary training program provides a synergistic nucleus
          which attracts trainees who are not funded by the LEND grant. In these cases, because
          the LEND training program exists, students who are not funded by LEND may be able to
          attend and benefit from the training anyway. In this way, LEND increases training in a
          field where shortages of professionals are a continuing problem. While these trainees may
          not be tracked formally by the LEND grantees, anecdotal evidence suggests that some of
          them continue to work with special needs children.

          LEND also serves a second function in many grantee programs. It serves as a core for
          other training and research monies. These monies may come from other grants, including

MCHB Training Grants: Performance of LEND Programs   9                                    OEI-04-98-00090
          university departments of individual disciplines involved in LEND training and the States
          where LEND programs reside. These departments find advantages in merging smaller
          amounts of money, usually in the form of stipend supplements, with the LEND stipends.
          In many cases this will make the LEND stipends more attractive to the outstanding
          student.

 LEND Grantees Have Mixed Success In Demonstrating
 Leadership and Tracking Graduates
          Factors affecting leadership

          The standard model of professional leadership is one in which appropriate education is
          followed by professional experience, during which leadership activities may accede
          progressively over time This means that LEND programs which purport to produce
          leaders must either produce them more immediately than the norm or keep track of
          graduates until they become leaders. Otherwise LEND programs will not know if they are
          meeting their objective. LEND grantees claim to do both.

          Several factors help determine whether or when a LEND graduate becomes a leader.
          Grantees noted that some LEND graduates do become leaders immediately upon
          graduation, while others may never do so.

          One such determining factor is the discipline of the LEND graduate. Within the required
          LEND disciplines, professional training and credentials vary widely. These differences are
          a strength of the LEND program. For example, some trainees are medical doctors or
          PhDs doing post-doctoral work in other disciplines. Trainees with such advanced
          education are more likely to move directly in leadership positions than trainees seeking
          master’s degrees.

          A second factor determining the likelihood of immediate leadership is the level of
          professional experience graduates have. For example, some LEND trainees are post-
          doctoral students who came into the training from leadership positions. They complete
          LEND training either to return to their existing position or go into other leadership
          positions. Most LEND trainees, however, enter the program with little experience with
          special needs children. Such trainees are likely to leave the LEND training program to go
          into entry level professional positions, such as a school nurse. For these trainees,
          leadership may come later in their careers.

          A third factor in determining whether a LEND graduate becomes a leader is the
          geographic location of their position following their LEND training. To illustrate, a
          practitioner who has LEND training and is located in a rural setting, with a shortage of
          health resources, may become a leader almost by default. We found instances of LEND
          graduates with very little experience beyond their training, who are serving in a variety of
          leadership roles in their communities. According to some LEND officials, these graduates



MCHB Training Grants: Performance of LEND Programs   10                                  OEI-04-98-00090
          would not function as leaders in urban centers where practitioners with more credentials
          and greater experience serve in those roles.

          Tracking graduates

          MCHB requires LEND grantees to track trainees. Tracking is important for several
          reasons. The first is to ascertain the extent to which trainees remain in the field of helping
          special needs children. Another is to ascertain the extent that LEND trainees assumed
          positions of leadership in their fields. Finally, tracking could provide valuable feedback on
          the impact of LEND training. Such information can be very useful in planning, directing,
          monitoring, and evaluating individual LEND training programs. In fact, this information
          comprises much of the basic data needed to evaluate the leadership aspect of LEND.

          LEND grantees reported mixed success in tracking their graduates as required. However,
           none of the programs we visited demonstrated particular success in tracking. As might be
          expected, tracking of recent graduates is relatively effective, while over time tracking
          becomes more difficult. Unfortunately, grantees lose track of their graduates later in their
          careers when they are more likely to be assuming professional leadership roles.

          In some cases, tracking systems are not capturing relevant information, despite the fact
          that they had maintained contact with many of their graduates. For example, some
          grantees collect no information on the position or duties of the graduate. Instead they had
          collected information on the graduate’s employer such as “school system” or “State
          Government.” From such information, it is impossible to ascertain whether the graduate is
          working as a leader with special needs children. While we accepted a variety of evidence
          that LEND produces leaders, improved graduate tracking could better demonstrate this.

 MCHB Monitoring and Evaluation of Grantees Is Minimal
          MCHB does not conduct monitoring visits to grantees. MCHB has not evaluated LEND
          programs despite a requirement to do so. LEND training programs are very complex and
          diverse. Without direct on-site monitoring and evaluation of program activities and
          results, MCHB has little basis for critical decisions regarding refunding. This lack of
          insight also hinders MCHB as they assess changes in program policy and operations
          decisions.

          With the absence of on-site monitoring, MCHB places the future of individual training
          grant programs solely in the hands of grant writers and grant reviewers. Grantees
          expressed concern that they would not get full credit for their accomplishments. Instead,
          they felt they might lose out to other institutions with no track record, but the ability to
          write better applications.

          MCHB staff acknowledge the difficulty of administering grants of this complexity without
          first-hand knowledge of grantee operations and performance.



MCHB Training Grants: Performance of LEND Programs   11                                    OEI-04-98-00090
 New Grant Categories Are Confusing
          Many grantees expressed confusion over MCHB’s new grant categories — specifically
          “Regional Significance” and “Regional and National Significance.” These category
          designations are intended by MCHB to distinguish between large training programs which
          have an expanded scope and focus on a regional and national level, and smaller programs
          which focus only at the regional level.

          “Regional Significance” and “Regional and National Significance” designated programs
          are subject to different funding limitations. Programs of Regional Significance may not
          request more than $450,000 per year. Programs of National Significance, however, may
          qualify for funding significantly above $450,000.

          While potentially useful for strategic planning purposes, the designations were difficult to
          understand and subject to individual interpretation. To illustrate, for determining their
          refunding status, MCHB instructed LEND grantees to self-declare their program category.
          Many grantees expressed concern that they might designate their program incorrectly and
          disqualify themselves from all funding.




MCHB Training Grants: Performance of LEND Programs   12                                 OEI-04-98-00090
                    RECOMMENDATIONS


MCHB should develop measures for determining the success of the LEND
program.

      In order to comply with requirements to evaluate the LEND program, MCHB should
      specify measures for determining the success of each LEND grantee. Such measures
      could include a definition or set of definitions of leadership. It could also establish a
      standard set of proxies for leadership to be used in evaluation.

MCHB should work with grantees to develop better methods for tracking
graduates

      To better determine the extent to which the LEND graduates become leaders meeting the
      needs of children with special needs, MCHB should collaborate with its grantees to
      develop and disseminate better ways to track graduates. The more effective the tracking,
      the better able LEND will be to make the case that they are producing leaders in this field.

Use on-site monitoring to aid in making funding decisions

      Site visits would enable MCHB to better access grantee operations and results. The on-
      site monitoring could be similar to the regular site monitoring currently employed for
      University Affiliated Programs. Through such monitoring, MCHB could make more
      informed funding determinations.

Clarify ‘Regional’ and ‘Regional and National’ grant funding categories

      Because grantees can lose their chance of funding if they mis-designate their program, the
      current confusion over the funding designations has potentially serious ramifications for
      LEND training programs. MCHB should consult with grantees to develop a better way
      for distinguishing between categories of grants.




                     AGENCY COMMENTS

HRSA concurred with our recommendations. Their comments are in Appendix A.




                                                13
      APPENDIX A




14

      APPENDIX A




15

      APPENDIX A




16

